Office of the Inspector General
Skip to content
Social Security Online
Office of the Inspector General
www.socialsecurity.gov
Home  |  Questions?  |  Contact
Us
Search
About
Hotline
Offices
Resources
Español
OIG Home
Audit
Report - A-06-97-22009
Office
of Audit
Southwest Tactical Operations Plan: Impact
on Field Office Operations (A-06-97-22009) 1/8/98
EXECUTIVE SUMMARY
OBJECTIVE
The objective of this evaluation was to provide information on
the impact of the Southwest Tactical Operations Plan (STOP) on the
operations of the Social Security Administration (SSA) field office
(FO) in El Paso, Texas, and staff concerns regarding the need for
stronger measures to deter residency fraud.
BACKGROUND
Supplemental Security Income (SSI) is a needs-based program that
provides income support to aged, blind, or disabled adults, and blind
or disabled children. One of the primary eligibility requirements
for SSI is that individuals be United States (U.S.) residents and
must maintain a continued presence in the U.S.
SSA staff in FOs in border States have alleged that some individuals
obtain SSI benefits while in the U.S. and subsequently leave to live
in a foreign country. If not detected, these recipients will continue
receiving payments for which they are not entitled. Obtaining SSI
generally results in eligibility for Medicaid, Food Stamps, and other
Federal and State assistance programs. Since SSI is an entry point
for receiving other assistance, the impact of individuals receiving
SSI fraudulently is far-reaching.
SSAs Office of the Inspector General (OIG) conducted the STOP
pilot project to determine if individuals were receiving SSI payments
based on fraudulent statements regarding residence. During the course
of the field work, SSA FO staff discussed with STOP project personnel
their impressions and ways to improve the overall operation of STOP.
This report provides the insights of the El Paso FO staff.
In order to determine the impact of STOP on the FO, we conducted
a focus group meeting with claims representatives (CR) and service
representatives (SR).  Additionally, we held meetings with managers,
supervisory staff, and security guards. (Unless otherwise noted,
we will refer to CRs, SRs, managers, and supervisors collectively
as staff.)
FINDINGS
Our findings include information on STOPs impact on FO operations
and staff concerns.
STAFF WAS SUPPORTIVE OF STOP AND WOULD PARTICIPATE IN SIMILAR
OPERATIONS
STOP IMPACTED ON FO OPERATIONS
STAFF EXPRESSED FRUSTRATION WITH THE LIMITED PENALTIES FOR RECIPIENTS
WHO BREAK THE RULES
STAFF PROVIDED SUGGESTIONS FOR IMPROVEMENT TO THE SSI PROGRAM
AND THE STOP PILOT PROJECT
CONCLUSIONS
Staff supported project STOP. Despite the significant impact on
operations, the project helped increase awareness of SSI residency
requirements in the community. Staff want to send a message to SSI
recipients and the surrounding community that SSA does not tolerate
fraud. They want increased penalties and additional investigative
resources invested to deter and detect fraud in the SSI program.
The staff would be willing to work on similar projects in the future.
TABLE OF CONTENTS
EXECUTIVE SUMMARY
INTRODUCTION
FINDINGS
STAFF WAS SUPPORTIVE OF STOP AND WOULD PARTICIPATE IN SIMILAR
OPERATIONS
STOP IMPACTED ON FIELD OFFICE OPERATIONS
Security Guards and Receptionists Hardest Hit
CRs and SRs Faced Additional Workloads
STAFF EXPRESSED FRUSTRATION WITH THE LIMITED PENALTIES FOR RECIPIENTS
WHO BREAK THE RULES
STAFF PROVIDED SUGGESTIONS FOR IMPROVEMENT TO THE SSI PROGRAM
AND THE STOP PILOT PROJECT
Staff Suggestions to Improve SSI Fraud Detection and Prevention
STOP Suggestions
CONCLUSIONS
APPENDICES
Appendix A - Major Report Contributors
INTRODUCTION
OBJECTIVE
The objective of this evaluation was to provide information on
the impact of STOP on the operations of the SSA FO in El Paso, Texas,
and staff concerns regarding the need for stronger measures to deter
residency fraud.
BACKGROUND
STOP was developed as a pilot project to test methods for identifying
potential residency fraud. During the course of the field work, FO
staff discussed with project STOP personnel their impressions of
STOP and ways to improve the overall operation. This report provides
the opportunity for FO staff to provide their insights.
Field Office Allegations
The catalyst for STOP was allegations that some individuals obtain
SSI benefits while in the U.S. and subsequently leave to live in
a foreign country. If not detected, these recipients will continue
receiving payments for which they are not entitled. Obtaining SSI
generally results in eligibility for Medicaid, Food Stamps, and other
Federal and State assistance programs. Since SSI is an entry point
for receiving other assistance, the impact of individuals receiving
SSI fraudulently is far-reaching.
SSI is a needs-based program that provides income support to aged,
blind, or disabled adults, and blind or disabled children. One of
the primary eligibility requirements for SSI is that individuals
be U.S. residents and must maintain a continued presence in the U.S.
Site Selection
We selected El Paso, Texas, as the site of the pilot project because
of its proximity to the U.S.-Mexican border. El Paso, a city of approximately
652,000 inhabitants, shares its city border with the Mexico border.
Directly across the Rio Grande and connected by a variety of foot
and automobile bridges is Ciudad Juarez, Mexico, a city of approximately
1.2 million inhabitants. The relative ease of travel between the
two cities has resulted in many people looking at El Paso and Ciudad
Juarez as one large city. SSA staff and El Paso residents with whom
we spoke believed residency choices are often based on costs and
proximity to family and friends rather than the desire to live in
a specific country. SSA staff allege that some SSI recipients in
El Paso do not meet the residency requirements.
OIG Pilot Project
SSAs OIG conducted the STOP pilot project to determine if
individuals were receiving SSI payments based on fraudulent statements
regarding residence. OIG used a mailer and office interviews as the
primary means of obtaining information from SSI recipients. We sent
letters to 2,107 SSI recipients residing in the 79901 and 79912 ZIP
codes. We requested that individuals provide, by mail, proof of U.S.
residency. The project STOP personnel were located in the El Paso
FO.
OIGs Offices of Investigations (OI) and Audit (OA) worked
as a team to conduct STOP. OI and OA, with assistance from SSAs
Office of Program and Integrity Reviews staff (Region VI), reviewed
recipients documentation and, when recipients or their representatives
came into the FO, conducted interviews to verify residency. Additionally,
OI investigated potential nonresidency cases that arose as a result
of the document reviews and/or interviews. OA analyzed the outcomes
of the pilot project and its impact on the El Paso FO. Based on these
efforts, the OIG will determine the usefulness and transferability
of such an effort to other locations.
METHODOLOGY
In order to determine the impact of STOP on the FO, we conducted
a focus group meeting with CRs and SRs. Additionally, we held meetings
with managers, supervisory staff, and guards.
This report is one in a series of reports related to the STOP project.
Additional reports will contain information on demographic characteristics
of recipients, results of the matching efforts with the Texas Bureau
of Vital Statistics and the Immigration and Naturalization Service,
characteristics of nonresidents, results of STOP investigations,
and a follow-up review to determine the payment status of SSI recipients
whose benefits were suspended as a result of STOP.
Our evaluation was performed in accordance with the Quality Standards
for Inspections issued by the Presidents Council on Integrity
and Efficiency.
FINDINGS
STAFF WAS SUPPORTIVE OF STOP AND WOULD PARTICIPATE IN SIMILAR
OPERATIONS
Staff believe "there is a lot of [residency] abuse" and,
therefore, were supportive of STOP. They are concerned about potential
residency abuses and the deception that individuals use to become
entitled to and receive SSI benefits. The following are two accounts
of CRs and SRs experiences with recipients who provided
false information about residency.
A woman owned her home in El Paso and gave that address to SSA
as her residence. Property is important as it solidifies an individual
as being part of a community. Additionally, the assumption is that
if an individual owns a house and land in a city the individual
is a resident of that city. However, the recipient rented her house
to others. A STOP investigator found that the woman had not lived
in her house in 1½ years and was residing in Mexico. She was willing
to go through the extreme of lying.
A claimant admitted he comes to pick up his check, stays 3 days
[in El Paso] then goes back to [Ciudad Juarez].
Because of the potential for residency abuse, CRs and SRs volunteered
to assist with STOP-related tasks. They believe projects like STOP
are needed on a regular basis. One worker summed up the feelings
of others when he asked,
Is there consideration for this type of review to continue? I
have been with the Agency many years. From what I see, we need
more activities like STOP. We dont have a sufficient number
of staff to constantly scrutinize individuals residency status.
Initially, managers were "apprehensive" about participating
in STOP. However, after assisting in STOP, they stated that they
would "participate in another study of this type because it
sends a message to the public that we are not lenient on individuals
committing SSI fraud."
STOP IMPACTED ON FO OPERATIONS
STOP generated extra work for the FO. Staff said recipients office
visits had a significant impact on their operations. Although recipients
were told to mail documents needed to verify their residency in the
U.S., the majority brought the documents into the office or had relatives
or friends deliver the documents. The FO manager summed up the volume
of office visits by saying:
As many as 83 recipients came in the office in a day. The office
was usually jam packed with people. Only one-tenth were coming
to see CRs or SRs.
Even before STOP started, CRs and SRs believed that recipients would
come into the office as a result of the mailer. They provided the
following comments about recipients reactions to mailed correspondence.
The letter says mail [the documents]. People are not going to
mail them. They are going to come in.
Recipients responses to the letter will be The tone
of the letter doesnt sound like something that I want to
just put in an envelope. I want to know whats happening.
I want to go in person.
Security Guards and Receptionists Hardest Hit
The security guards and receptionists (rotating CRs and SRs) experienced
the greatest impact from the office visits due to the volume of individuals
coming into the FO. The security guards served as the initial receptionist.
All individuals coming to the office were required to speak to the
security guard before making contact with any other worker. He would
explain that they needed to wait and that a STOP staff would be with
them shortly. Some individuals chose not to tell the security guard
that they were there regarding STOP and spoke with the receptionist.CRs
and SRs Faced Additional Workloads
For staff, the STOP workload was more than anticipated. Additional
work included:
conducting unscheduled office and telephone interviews with
recipients who wished to discuss STOP;
making data entries in recipients automated folders (up
to 2 hours per day);
responding to recipients inquiries about suspended cases;
assisting recipients whose benefits were suspended by setting
up conferences and arranging for recipients to file appeals;
responding
to calls from local service providers (SSI suspensions were negatively
affecting recipients receiving hospice and homemaker
services);
meeting with protesting recipients who believed they were penalized
for visiting relatives in Mexico;
meeting with U.S. citizens who were upset and confused about
their need to prove they are U.S. residents; and
explaining residency requirements to recipientsespecially
elderly recipientswho have misunderstandings of what residency
means for SSI purposes.
STAFF EXPRESSED FRUSTRATION WITH THE LIMITED PENALTIES FOR RECIPIENTS
WHO BREAK THE RULES
FO Staff expressed a variety of concerns related to the penalties
recipients face when they willfully provided false information to
obtain and/or receive SSI benefits. For example, they question the
lack of a waiting period after an individual is found to have falsified
residency information to reapply for benefits. Currently, individuals
who have falsified residency information need only establish residency
for 30 consecutive days and present the information to SSA to
be placed back into payment status. They also question the handling
of overpayments. One worker summed up the feelings regarding this
issue.
In the end, most of [the suspended cases] are going to be put
back into pay status. We will reduce the SSI payments to pay for
the overpayment. So the effect is, the Government is paying its
own self back.
In addition, the small amount that the recipient usually pays back
each month will require years before the overpayment is recovered.
Staff believe that U.S. Attorneys are reluctant to prosecute some
recipients, especially the elderly. They also believe that recipients
are aware of the limited penalties. The recipients and the community
believe "[SSA is] not willing to take harsh steps when [recipients]
commit residence fraud." One worker reported,
The community should be advised of the penalties associated with
SSI residency fraud.
STAFF PROVIDED SUGGESTIONS FOR IMPROVEMENT TO THE SSI PROGRAM
AND THE STOP PILOT PROJECT
The staff provided suggestions for improving the SSI programespecially
related to residencyand STOP.
Staff Suggestions to Improve SSI Fraud Detection and Prevention
If a recipient provides falsified information regarding residency,
there should be an extended waiting period before the individual
can be reinstated.
Recipients committing fraud should be punished. They should be given
the message, "If you provide false information, you are likely
to be fined or go to prison."
The FO should be able to routinely request assistance from OIG to
verify residency when there is a suspicion that an individual has
provided falsified information to obtain benefits.
STOP Suggestions
More publicity should be given to fraud detection and identification
studies. The community and recipients need to receive the message, "If
you do not live in the country, you are not going to get benefits."
FO staff should be more involved in the planning stage of a pilot
project like STOP. They are able to: 1) direct the team to the areas
in the city where fraud is most likely found; 2) provide insights
into the culture of the individuals to be reviewed; and 3) determine
which data collection methods are most likely to be successful.
Staff resources should be provided to handle the residual work that
projects like STOP generate. The FO was left with the clean-up work
resulting primarily from suspended cases. Two workers commented,
I have 34 requests for reconsiderations added to my workload.
Some clients are requesting to see their folder [which also] adds
to my workload.
After [STOP staff] did what they needed to do here, they closed
up shop and left. They left the rest of us kind of [hanging]. There
was no indication of what was going to be our next step.
CONCLUSIONS
Staff supported project STOP. Despite the significant impact on
operations, the project helped increase awareness of SSI residency
requirements in the community. Staff want to send a message to SSI
recipients and the surrounding community that SSA does not tolerate
fraud. They want increased penalties and additional investigative
resources invested to deter and detect fraud in the SSI program.
The staff would be willing to work on similar projects in the future.
APPENDICES
Appendix A
MAJOR REPORT CONTRIBUTORS
Office of the Inspector General
William Fernandez, Director, Program Audits (West)
Brian Pattison, Deputy Director
Elsie Chaisson, Senior Evaluator
George De Luna, Senior Evaluator
Johannah G. Evans, Staff Assistant
Social Security Administration
El Paso Field Office Staff
For additional copies of this report, please contact the Office
of the Inspector Generals Public Affairs Specialist at (410)
966-9135. Refer to Common Identification Number A-06-97-22009.
Privacy Policy | Website
Policies & Other Important Information | Site
Map
Need Larger Text?
Last reviewed or modified